OIG Audit Report GR-30-06-001

United States Marshals Service Intergovernmental Service Agreement for Detention Facilities with the Western Tidewater Regional Jail, Suffolk, Virginia
Audit Report GR-30-06-001
December 2005
Office of the Inspector General


Executive Summary


The  United States  Marshals Service (USMS) assumes custody of individuals arrested by all federal  agencies.  It is responsible for the  housing and transportation of federal detainees from the time they are brought  into federal custody until they are either acquitted or incarcerated.1  Each day, the USMS houses more than 47,000 detainees  throughout the United States.  In order to house these pre-sentenced  detainees, the USMS executes contracts known as Intergovernmental Service  Agreements (IGA) with state and local governments to rent jail space.  According to the USMS, 75 percent of the detainees  in USMS custody are detained in state, local, or private facilities.
An IGA is a formal agreement between  the USMS and a state or local government to house federal prisoners at a fixed jail  day rate based on actual and allowable costs for the same level of service  provided to state or local prisoners in a specific facility.2 To request either a jail  day rate, or an increase to the current jail day rate, the USMS requires the  local governments to complete and submit a Form USM-243, Cost Sheet for Detention  Services (Cost Sheet), to  the appropriate USMS district office. The  USMS district office then forwards the Cost Sheet to USMS Headquarters for  evaluation and approval.
The USMS awarded the Western Tidewater Regional Jail (WTRJ) IGA number 83-92-0082  on November 01, 1992. According to the  IGA, detainees are housed in the WTRJ at a rate of $65 per jail day.  In April 1996,  the USMS modified the IGA to include reimbursement for guard transportation  services at a rate of $0.30 per mile and $10 per hour. According to the WTRJ’s accounting records for Fiscal Years (FYs) 1998 through 2005,  the WTRJ was paid $17,781,769 for the housing and  transportation of federal detainees under the IGA. 
The purpose of this audit was to  determine if the jail day rate is current and accurate; the costs for the  detention and care of inmates are allowable, allocable, and reasonable under Office  of Management and Budget (OMB) Circular A-87, Cost Principles for State,  Local and Indian Tribal Governments; and the amounts billed are correct.3  Based on our audit of actual costs and daily population, we determined  that the WRTJ’s accounting records do not support the $65.00 rate used to bill  the USMS. As shown in the following  table we calculated the jail day rates to be $35.00 and $37.36 for FYs 2004 and  2005. 
Audit Determined Jail Day Rates


 
FY 2004 
FY 2005


Total Expenses
$8,639,896
$9,134,595


Add: Depreciation
$67,291 
$130,821


Less: Audit Exceptions
  ($190,531)
 ($332,627)


Equals: Allowable Costs
$8,516,656 
$8,932,789


Divided by: Actual Jail Days
    243,331 
    239,098


Equals: Audited Jail Day Rate
$35.00
$37.36


Source: Western Tidewater Regional Jail financial records
Our audit determined that the USMS overpaid the WTRJ  by $2,862,349 for FYs 2004 and 2005 ($1,244,220 in FY 2004 and $1,618,129 in FY  2005). Additionally, we determined that  the USMS could save $1,618,129 by implementing the audited rate for FY 2006.4 We found that the overpayments were primarily  due to the USMS awarding the WTRJ a $65 jail day rate even though WTRJ’s  unaudited Cost Sheet only supported a $52.26 jail day rate, and the significant  increase in total jail days from FYs 1998 to 2005.


 

Footnotes

Federal detainees are generally individuals  housed in jails awaiting trial, sentencing, or immigration hearings or removal  proceedings.
A jail day is the equivalent of one person incarcerated for one day and  begins on the date of arrival, but does not include the date of departure.
See Appendix I for more information on our objectives, scope and  methodology.
To determine the FY 2006 savings, we multiplied the FY 2005 federal jail  days (58,543) by the difference between the current jail day rate and the audit  determined rate for FY 2005 ($65.00 - $37.36).





 




Return to OIG Home Page